Testimony 03-21-2001                                                                 Page 1 of 10




                                 HEARING BEFORE THE

       SUBCOMMITTEE ON TREASURY, POSTAL SERVICE AND GENERAL
                          GOVERNMENT

                          COMMITTEE ON APPROPRIATIONS

                          U.S. HOUSE OF REPRESENTATIVES




                                     MARCH 21, 2001




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm     5/26/2004
Testimony 03-21-2001                                                                  Page 2 of 10



                             STATEMENT FOR THE RECORD




                                    DAVID C. WILLIAMS

                                   INSPECTOR GENERAL

          TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION



    Mr. Chairman and members of the Subcommittee, I appreciate the opportunity to
    appear before you today to discuss the accomplishments and challenges of the
    Treasury Inspector General for Tax Administration (TIGTA) and the Internal Revenue
    Service (IRS).

    Treasury Inspector General for Tax Administration Accomplishments and Challenges

    TIGTA is fairly new to the Inspector General community. To provide effective oversight
    to the IRS, TIGTA developed an organizational alignment that is best suited to
    address the demands and challenges of the IRS. The Office of Audit is aligned with
    the IRS’ business unit structure that allows focused audit coverage of the highest
    priority tax administration issues. The Office of Investigations (OI) reports directly to
    the Headquarters Office through geographically dispersed field offices. Additionally, its
    Strategic Enforcement Division (SED) proactively identifies and investigates
    unauthorized accesses by employees and illegal intrusions by outsiders into
    computerized tax data. This Division also investigates outside attempts to interfere
    with the operation and security of Treasury-owned computer networks.

    One of TIGTA’s major statutory requirements is to respond to acts of violence directed
    against IRS personnel and to investigate domestic terrorism. In the past 2 years, we
    have conducted over 1,400 assault investigations, some of which involved anti-
    government groups. Currently, we are investigating the mailings of suspicious powder
    substances to IRS Service Centers as well as two fire- bombings at an IRS facility.

    TIGTA has achieved good accomplishments in its first full year of operations. TIGTA
    management and personnel have placed great emphasis on adding value through the
    timely delivery of high-quality audits and investigations. As a result, TIGTA’s financial
    accomplishments totaled over $1.5 billion in Fiscal Year (FY) 2000. Thus, TIGTA
    returned almost $14 for every budget dollar appropriated, 5 times more than in FY
    1999.

    In FY 2000, OI special agents closed 43 percent more investigations than in the prior
    year. The number of criminal referrals accepted for prosecution during FY 2000
    increased by 6 percent over FY 1999. The Office of Audit issued 162 audit reports in
    FY 2000, a 119 percent increase over FY 1999. These reports accounted for almost



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm      5/26/2004
Testimony 03-21-2001                                                                    Page 3 of 10



    all of TIGTA’s $1.5 billion financial accomplishments claimed. Audit reports contained
    recommendations that improved tax administration involving almost 11.4 million
    taxpayer accounts, a 25 percent increase from FY 1999.

    Since 1997, TIGTA has initiated over 1,300 unauthorized access investigations,
    resulting in the removal or resignation of 373 IRS employees, which include 65
    successful criminal prosecutions. Overall, 20 percent of the unauthorized access
    investigations also identified evidence of other criminal violations.

    Internal Revenue Service Accomplishments and Challenges

    The IRS is experiencing success in its administration of the nation’s tax system. For
    the first time, the General Accounting Office (GAO) has issued an unqualified or
    "clean" opinion on all of the IRS’ financial statements. In addition, the IRS is currently
    experiencing a successful filing season. As of February 23, 2001, the number of
    returns filed electronically has increased by about 7 percent. In addition, the IRS
    continues to increase the number of tax forms that taxpayers can file electronically.
    Approximately 23 new forms (for electronic filing) were added in 2001 with an
    additional 40 to be added in 2002. The IRS has also developed a website that
    provides taxpayers with convenient access to tax forms and information. Despite its
    success in these areas, the IRS recognizes improvements in its operations are
    necessary.

    To address its need to improve, the IRS is in the midst of a number of complex and
    interrelated reform and restructuring initiatives. There is a broad consensus for the
    IRS’ plan to transform itself as a more customer-focused organization and to
    modernize its computer systems, while continuing to implement tax law changes and
    collect approximately $1.9 trillion in tax revenue.

    In response to the IRS Restructuring and Reform Act of 1998 (RRA 98), the IRS is
    transforming itself so that it will operate better and service its customers more
    efficiently. It has successfully initiated the process of restructuring the organization
    into four new customer-focused business units. Even though changes have been
    made toward a restructured IRS, it must continue to address the management and
    operational issues that surface to provide first-rate customer service and ensure
    compliance with the tax laws.

    Organizational Restructuring

    The most significant challenge the IRS will face over the next few years is
    modernization. IRS modernization includes both organizational restructuring and
    implementation of new computer systems and technology. The RRA 98 mandated a
    restructured IRS organization and revamped business practices. The ability to achieve
    the IRS’ modernization concept is largely dependent on restructuring the organization
    to better meet taxpayer needs and developing new technology to correct deficient and
    obsolete systems.

    On October 1, 2000, the IRS achieved its first milestone toward modernization by
    putting into effect (or standing up) a new organizational structure. The four major
    components of the new IRS are: the Wage and Investment (W&I) Division, the Small



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm         5/26/2004
Testimony 03-21-2001                                                                   Page 4 of 10



    Business/Self Employed (SB/SE) Division, the Large and Mid-Size Business (LMSB)
    Division and the Tax Exempt and Government Entities (TE/GE) Division.

    The stand up of the new business unit structure was an important first step in the IRS’
    restructuring, though it is far from the last step of this long-term endeavor. The IRS
    must continue to address management and operational issues such as taxpayer
    access to "walk-in" and "toll-free" services; accuracy of responses provided to
    taxpayers; the ability to hire, train and retain a qualified workforce; and, reversing the
    decline in enforcement rates.

    TIGTA audits showed that all four business units were successful in substantially
    completing the five critical elements needed for standing up. Specifically, most key
    management positions were filled, most employees had been realigned, finance
    offices and budgets were established, many delegations of authority were revised,
    and detailed plans of workarounds were developed. However, additional actions were
    needed in the area of staffing unfilled positions in the W&I Division and minimizing the
    inherent risks associated with implementing the TE/GE Division’s modernization
    vision.

    Restructuring the IRS is a long-term effort, with probably a decade remaining of
    updating technology, revamping business practice, and refining balanced measures of
    organizational performance. The success of the restructuring effort is interdependent
    with the IRS’ ongoing systems modernization effort. For example, current systems
    have not yet been reprogrammed to provide IRS executives the information they need
    to make decisions in the IRS’ new operating environment, which focuses on serving
    distinct taxpayer market segments. The executives rely on the information generated
    from its systems to plan, execute and evaluate programs. Until this realignment of
    management information is achieved, executives may not have all the data they need
    to effectively manage resources and to evaluate whether taxpayers are receiving the
    best service possible.

    Systems Modernization

    The IRS has made some significant progress towards its governance structure and
    processes to support and oversee the modernization of its computer systems. The
    IRS has entered into a contract with a consortium of technology and business service
    providers, led by a major integrator, which will enable it to achieve its modernization
    goals. This contract is commonly referred to as the PRIME contract, and is a multi-
    billion dollar contract over a 15-year period.

    About $400 million has been spent on systems modernization since it began about 2
    years ago. While significant progress has been made, thus far, most of the ongoing
    systems modernization projects have taken longer and cost more than originally
    planned. As a result, benefits to taxpayers have yet to be realized. A contributing
    factor is that the IRS is in a steep learning curve in its systems modernization effort,
    and the roles and responsibilities of the IRS and the PRIME contractor were
    inadequately defined during the early phases of the modernization. In addition, some
    projects were started before the IRS’ updated "Blueprint" for modernization was
    completed and detailed business needs were clearly defined. Also, established
    processes have not been fully implemented. While these growing pains are not




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm       5/26/2004
Testimony 03-21-2001                                                                  Page 5 of 10



    uncommon for major systems development projects, the result is that the goals of the
    restructured IRS may take longer to realize.

    The IRS will continue to face risks throughout the life of its technology modernization
    projects, and TIGTA will continue to assess its efforts. Thus far, TIGTA has identified
    six areas of concern that could have serious implications on the success of computer
    modernization, if not properly managed. These areas are:

       z   A lack of tangible benefits delivered to taxpayers.
       z   Potential funding problems.
       z   Problems implementing key systems development processes such as the
           Enterprise Life Cycle, project management, configuration management and risk
           management.
       z   Inappropriate sequencing of projects.
       z   Projects being over budget and behind schedule.
       z   Business needs not always being well defined.

    In addition, TIGTA has reported to IRS management the need for all systems
    development activities to be consolidated and monitored under the Chief Information
    Officer (CIO). TIGTA believes that managing systems development initiatives outside
    the CIO’s organization increases the risk of inconsistent and ineffective project
    management processes and fragmented systems modernization initiatives, which
    could lead to delays, cost overruns and rework. Overall, there is still a steep learning
    curve and there are many issues that remain to be addressed.

    Computer Security

    The IRS maintains a significant amount of valuable and sensitive information. As
    such, computer security will continue to be a risk for the IRS. The IRS faces external
    threats and risks from within as unethical employees have improperly viewed and
    manipulated taxpayer records. In response to these risks, TIGTA maintains an
    approach to overseeing the IRS’ computer security efforts that address detection and
    prevention activities.

    In 1997, the IRS initiated a major education program to alert all employees to the
    Taxpayer Browsing Protection Act of 1997 and to the IRS’ policy of "Zero Tolerance"
    for unauthorized access to, and inspection of, taxpayer records. The IRS’ objective is
    to eliminate unauthorized access. The IRS conducts annual awareness programs to
    reinforce this policy and requires all employees to acknowledge, in writing, that they
    attended and understood the presentations.

    To address unauthorized access to taxpayer information by employees, TIGTA uses
    detection criteria that search the IRS’ tax administration files. The SED uses computer
    technology and forensic data analysis techniques to investigate unauthorized access
    leads identified by the criteria and complaints received by field special agents.

    Over the past several years, TIGTA has recommended that the IRS improve controls
    in its computer systems to protect confidential taxpayer information from unauthorized
    employee accesses because the IRS continues to have difficulty protecting such
    information from misuse. Recent TIGTA audits have identified significant security



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm      5/26/2004
Testimony 03-21-2001                                                                   Page 6 of 10



    weaknesses in other areas such as:

       z   Intrusion detection.
       z   Disaster recovery.
       z   Physical security of facilities and systems.
       z   Certification of security controls for sensitive systems.

    TIGTA is also working closely with the IRS to develop a cadre of dedicated computer
    specialists and criminal investigators who will rapidly respond to computer intrusion
    incidents, investigate IRS network problems when indicators of intentional disruption
    are present, and conduct recurring systems penetration tests to detect new
    vulnerabilities.

    Financial Management

    As mentioned earlier, the GAO has given the IRS an unqualified (clean) opinion on its
    financial statements, which is an improvement over FY 1999. However, the GAO
    continues to report that internal controls at the IRS are not effective, and that the IRS’
    financial management systems lack substantial compliance with the Federal Financial
    Management Improvement Act.

    While the IRS was able to produce financial statements that were fairly stated in all
    material respects using compensating processes, this approach does not produce the
    reliable, useful, and timely financial and performance information the IRS needs for
    decision-making on an ongoing basis.

    Tax Law Changes

    The filing season impacts every American taxpayer and is, therefore, always a highly
    critical program for the IRS. Many programs, activities, and resources have to be
    planned and managed effectively for the filing season to be successful. For example,
    more than 250 computer-programming changes were required for the 2000 Filing
    Season. These were further complicated by the IRS’ modernization efforts to update
    and replace its core tax processing systems.

    The IRS must confront the challenge of ensuring that telecommunications and system
    capacity will accommodate the new electronic filing requirements to ensure the
    accuracy and utility of information received and processed. The IRS had initially
    planned to validate all secondary Social Security Numbers (SSN) processed during
    the 2000 Filing Season. However, the IRS subsequently approved computer-
    programming changes to bypass the validation based on the early volume of returns
    received.

    The IRS also lost $211 million in revenue by failing to stop taxpayers from claiming
    erroneous child credits for 1998 and 1999. The IRS had not programmed its computer
    system to properly process changes related to the Child Tax Credit and the Additional
    Child Tax Credit.

    The IRS needs additional procedural and organizational changes to further reduce tax
    form complexity and taxpayer burden. The IRS currently does not have a toll-free



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm       5/26/2004
Testimony 03-21-2001                                                                 Page 7 of 10



    telephone number that would provide individual taxpayers with a convenient method
    to provide the IRS with tax form improvement comments. In addition, the IRS should
    strengthen the system of controls over the tax form development process to ensure
    compliance with Federal internal control standards.

    Customer Service and Tax Compliance Initiatives

    The IRS has embarked on a course to re-engineer its business processes and
    technology to focus on providing world-class service to taxpayers. The theory is that
    the overall rate of voluntary compliance with the tax laws will increase if the IRS
    provides the right mix of education and support to taxpayers.

    Revenue receipts processed by the IRS increased from $1.5 trillion in FY 1996 to
    $1.9 trillion in FY 1999. However, revenue collected as a result of compliance activity
    decreased by $5 billion and gross accounts receivable increased by $41 billion during
    this same period. IRS management and many stakeholders have been concerned
    about the reduction in resources allocated to compliance activities and the related
    decrease in business results. To help address this issue, Treasury’s FY 2001 budget
    submission included a request for 2,800 new positions over the next 2 fiscal years.
    These additional resources would be dedicated to enforcing tax laws and improving
    service to taxpayers.

    Decreased enforcement has also been attributed to IRS employees’ concerns over
    the mandatory termination provision in Section 1203 of the RRA 98. To help address
    these concerns, TIGTA has continued to brief the IRS staff on investigations related to
    Section 1203 violations. In addition, TIGTA continues to be dedicated and involved in
    the IRS’ efforts to comply with the legislative changes required by the RRA 98 through
    representation on an IRS task force with the focus on Section 1203 processes.

    Customer Service

    Providing a quality customer service operation remains a top priority for the IRS.
    Telephone and Internet technology, in particular, afford the IRS many opportunities to
    dramatically improve its customer service. The IRS has made some strides in its use
    of such technology. However, inadequate systems design and planning hinder some
    of these efforts, and put some of them at risk of not being completed when promised.

    For example, the IRS has been planning to implement an Internet-based refund status
    application since 1996 and currently intends to have it available by the 2002 Filing
    Season as part of its overall business systems modernization efforts. While we
    observed some general planning and analysis had been accomplished, detailed
    design and development was still needed. To be postured for the 2002 Filing Season,
    the IRS must define and complete a substantial amount of critical design requirements
    and development work, including analyzing and defining the business and functional
    requirements of the refund application, ensuring the application meets all security and
    privacy requirements, and integrating/ interfacing the web application with the
    modernized or legacy computer systems.

    The Electronic Tax Law Administration (ETLA) Program is a program that is intended
    to revolutionize how taxpayers transact and communicate with the IRS. However,



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm     5/26/2004
Testimony 03-21-2001                                                                 Page 8 of 10



    significant improvements are needed to raise the quality of answers. The IRS
    responded correctly to only 54 percent of the SB/SE Division questions TIGTA
    submitted through the Digital Daily. Commercial web sites offering free tax advice
    provided correct answers only 47 percent of the time. Our analysis of response times
    showed that the commercial web sites provide responses faster than the IRS, but
    taxpayers were generally satisfied with the IRS’ response times.

    Also, during a current review of the Tax Assistance Centers, 90 contacts were made
    with IRS representatives. In seven of these instances, service was denied to our
    reviewers (i.e., reviewers were merely provided forms or instructions, but not given the
    opportunity to speak with an assistor). When service was provided, inaccurate
    answers were received 48 percent of the time.

    Revenue Protection

    The IRS must continually seek opportunities to protect revenue and minimize tax-filing
    fraud in its programs and operations. A highly visible area of concern and potential
    fraud is in the Earned Income Credit (EIC) Program. An August 2000 IRS EIC
    compliance study reported that the amount of overclaims submitted was
    approximately 31 percent of the amount claimed. The IRS’ weaknesses related to the
    EIC are in three primary areas:

       z   Achieving full participation by eligible taxpayers.
       z   Ensuring compliance through verification of taxpayers’ eligibility.
       z   Reducing inherent vulnerabilities (multiple use of dependent SSNs).

    The IRS has launched promising new compliance initiatives. For example,
    partnerships with the Department of Health and Human Services and the Social
    Security Administration (SSA) will permit the IRS to cross-check information regarding
    how the child is related to the taxpayer, the age of the child, and whether the taxpayer
    is the child’s custodial parent. In 2001, the IRS began checking all secondary SSNs in
    addition to primary and qualifying child SSNs on EIC returns. The IRS is rejecting
    returns if the names and numbers do not match Social Security records. Another
    initiative that improves the detection and prevention of erroneous EIC claims before
    tax refunds are paid allows the IRS to deny EIC claims when a return is first received if
    the taxpayer’s EIC claim was denied the previous year and the taxpayer did not follow
    recertification requirements that were enacted in 1997.

    Despite extensive IRS programs and efforts it has made to detect and stop fraudulent
    claims, relatively little effort has been made to systematically identify refund schemes
    involving business returns and associated credits. A few business schemes have
    been identified but it has generally been through labor intensive manual procedures.
    The IRS is concerned that fraudulent refund claims may be expanding to include
    business returns and that scheme perpetrators continue to develop new methods to
    defraud the system.

    Taxpayer Protection and Rights

    The IRS is making progress in its implementation of the RRA 98 provisions. As of
    September 30, 2000, the IRS had improved its compliance with some of the RRA 98



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm      5/26/2004
Testimony 03-21-2001                                                                  Page 9 of 10



    provisions that TIGTA has reviewed. However, the IRS needs to continue to focus its
    efforts on several additional taxpayers’ rights provisions. These provisions include:

       z   Restricting the use of enforcement statistics to evaluate IRS employees.
       z   Not designating taxpayers as illegal tax protesters.
       z   Providing proper and timely notice that a federal tax lien has been filed.
       z   Not withholding information in response to taxpayers’ written requests for
           information under the Freedom of Information Act of 1988 or the Privacy Act of
           1974.

    TIGTA assists in the protection of taxpayers and their rights by investigating
    allegations of misconduct by IRS employees. Since the passage of the RRA 98, over
    2,700 complaints alleging Section 1203 violations have been received. Shortly after
    the passage of Section 1203, there was an initial surge in what both the public and
    IRS employees thought were valid Section 1203 violations. TIGTA is currently
    receiving about half of the complaints it initially received.

    Consistently, since the enactment of the statute almost 3 years ago, the vast majority
    of Section 1203 complaints received by TIGTA have alleged an IRS employee
    violated a provision of the IRS Manual or Internal Revenue Code in order to retaliate
    against, or harass someone. Approximately 35 percent of these complaints were
    made by IRS employees against other IRS employees or supervisors. The second
    category, by volume, concerns constitutional and civil rights/Equal Employment
    Opportunity (EEO) violations. Again, many of the civil rights/EEO complaints were
    made by IRS employees against other IRS employees or supervisors.

    Implementation of the Government Performance and Results Act of 1993

    Within the last 2 years, the IRS has developed a Strategic Plan and provided budget
    justifications that include the Annual Performance Plan(s). Collectively, these
    documents satisfy major requirements of the Government Performance and Results
    Act of 1993 (GPRA) by identifying the IRS’ mission, strategic objectives, goals, and
    strategies. The documents also describe the IRS’ priorities for the next 6 years and
    the key performance indicators (measures) used in assessing achievement of those
    goals.

    The IRS Commissioner has indicated that it will take years to achieve a fully
    acceptable set of balanced measures that can be used at all levels of the
    organization. While the new operating units concentrate on implementing the new
    organizational structure, performance measures may not be a high priority. Based on
    our audits to date, TIGTA believes that the IRS can improve its measures, the data
    quality of its measures, and its reporting of annual accomplishments.

    As part of a balanced measurement system, the IRS conducts surveys of taxpayers to
    gauge their satisfaction with IRS customer services. The results of these surveys are
    also used for GPRA reporting purposes. The IRS conducted surveys in various
    functions, including the toll-free telephone, walk-in, collection, examination, and
    appeals operations. Our reviews of the controls and processes used in conducting
    these surveys indicated that survey data may not be statistically reliable. Specifically,
    the surveys did not always include all taxpayer interactions, the sampling



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm      5/26/2004
Testimony 03-21-2001                                                               Page 10 of 10



    methodologies did not ensure equal and unbiased opportunities for taxpayer
    participation, and the survey response rates were too low, thereby increasing the risk
    that the results may not be representative of the overall population.

    Impact of the Global Economy on Tax Administration

    The GAO and TIGTA have previously reported serious internal control and systemic
    weaknesses in the IRS’ administration of its international programs. The IRS
    continues to struggle to increase compliance in an ever-growing international
    economy. Significant improvements are needed in international compliance programs
    to focus on nonfiling, transfers of assets by United States citizens to foreign trusts,
    foreign tax credit claims, and foreign-sourced income.

    A recent TIGTA audit found that the IRS is in no better position today to determine
    taxpayers’ compliance levels in reporting foreign-sourced income than it was in 1997.
    Despite the foreign-sourced income information that tax treaty partners provide, the
    IRS’ processes to measure compliance and identify non-compliance are inadequate.

    In closing, the IRS is working intensely to address these vulnerabilities and concerns
    in order to ensure that its efforts to reform and restructure are successful.




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_03212001.htm     5/26/2004
